=
\

C@OCKLE

E-Mail Address:
L ega 1 Brie fs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 20-1088
DAVID AND AMY CARSON,
as parents and next friends of O.C., et al.,
Petitioners,

v.
A. PENDER MAKIN, in her official capacity as
Commissioner of the Maine Department of Education,
Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF CHRISTIAN
LEGAL SOCIETY, AGUDATH ISRAEL OF AMERICA, AMERICAN ASSOCIATION OF
CHRISTIAN SCHOOLS, THE ANGLICAN CHURCH IN NORTH AMERICA, ASSOCIATION
OF CHRISTIAN SCHOOLS INTERNATIONAL, COUNCIL FOR AMERICAN PRIVATE
EDUCATION, COUNCIL FOR CHRISTIAN COLLEGES & UNIVERSITIES, ETHICS &
RELIGIOUS LIBERTY COMMISSION OF THE SOUTHERN BAPTIST CONVENTION,
EVANGELICAL COUNCIL FOR FINANCIAL ACCOUNTABILITY, INSTITUTIONAL
RELIGIOUS FREEDOM ALLIANCE, THE LUTHERAN CHURCH — MISSOURI SYNOD,
NATIONAL ASSOCIATION OF EVANGELICALS, AND QUEENS FEDERATION OF
CHURCHES AS AMICI CURIAE IN SUPPORT OF PETITIONERS in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains

5883 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 11th day of March, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

fen tenses NOTARY-State of Nebraska Zz Chbhy
RENEE J. GOSS .

fen tenses Exp. September 5, 2023

 

Notary Public Affiant 40670
